              18
               ,< ~·.


                ~
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security



                                       JUL 3 0 2014


MEMORANDUM FOR: 	            The Honorable Jeh C. Johnson
                             Secretary

FROM: 	                      John Roth   ~~X""
                             Inspector General

SUBJECT: 	                    Oversight of Unaccompanied Alien Children

We are performing ongoing unannounced site visits to determine the conditions of
detention for unaccompanied alien children (UAC) in OHS custody. Site visits are taking
place along the southern border in facilities where Customs and Border Protection (CBP)
temporarily house UAC. This report covers fieldwork performed from July 1- 16, 2014.
Site visit locations are included as Attachment 1.

To accomplish this effort, we developed a checklist that incorporates requirements of
(1) The Flores v. Reno Settlement Agreement and (2) CBP's internal policies that address
the 2008 William Wilberforce Trafficking Victims Protection Reauthorization Act
(TVPRA). The Flores v. Reno Settlement Agreement governs the policy for the
treatment of unaccompanied alien children in federal custody. CBP internal policies
address additional requirements of the Homeland Security Act of 2002 and TVPRA.
Requirements include:

   •	  operable and sanitary toilets and sinks;
   •	  potable drinking water and adequate food;
   •	  emergency medical care; adequate temperatures and ventilation;
   •	  adequate supervision and access to telephones;
   •	  notification to United States Citizenship and Immigration Services asylum officers
       when UAC raise protection concerns;
   • 	 notification to Department of Health and Human Services (HHS) for placement;
       and,
   • 	 UAC held in OHS custody for less than 72 hours before transfer to HHS except in
       exceptional circumstances.

We used the checklist, along with observations and interviews, to assess the treatment
of UAC in OHS custody. When feasible, we ensured that immediate action was taken to
correct deficiencies noted during site visits. The checklist is included as Attachment 2.
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


We also initiated investigations based on a June 11, 2014, American Civil Liberties Union
(ACLU) complaint to the DHS Officer for Civil Rights and Civil Liberties (CRCL) and the
OHS Office of Inspector General (OIG). The ACLU filed this complaint on behalf of 116
UAC alleging criminal behavior; violations of civil rights and liberties; and violations of
laws, regulations and policies in the treatment and processing of UAC. OHS is
investigating each of these allegations as follows:

   • 	 OIG - 16 allegations
   • 	 Immigrations and Customs Enforcement (ICE) Office of Professional 

       Responsibility (OPR) - 1 allegation 

   • 	 CBP Office of Internal Affairs (IA) - 99 allegations

The OIG is monitoring ICE and CBP investigations and will review the results. DHS CRCL
identified 38 of the 116 allegations as potential CRCL violations, and will conduct
separate reviews as appropriate.

During this reporting period, we conducted 87 unannounced site visits to 63 locations,
including CBP ports of entry, U.S. Border Patrol (USBP) checkpoints, stations, and
holding facilities; ICE detention centers; and the Federal Law Enforcement Training
Center Artesia. We visited selected sites on multiple occasions.

We developed the checklist after completing 18 of our initial site visits. Therefore, this
initial report includes information from the 69 site visits where checklists were
completed. Our subsequent reports will include information documented on checklists
for all site visits. The following section represents our overall conclusions. A detailed
summary of our site visit results is included as Attachment 3.

Allegations of Inappropriate Conduct

   • 	 OIG, ICE, CBP, and CRCL investigations of allegations of misconduct are ongoing.
   • 	 We did not observe misconduct or inappropriate conduct by DHS employees
       during our unannounced site visits.
   • 	 We did not receive new complaints during our random interviews of UAC.

Compliance With UAC laws. Regulations. Policies

   • 	 A September 2010 OIG report emphasized the need for CBP to establish a
       procedure to document required UAC information such as the times meals are
       served, phone usage, detainee medical conditions, and detainee arrests and
       releases from CBP custody. As such, E3 is the data system CBP uses to
       document compliance with UAC guidelines. Border Patrol issued directives in

                                             2

                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


       2012 and 2013 requiring that E3 be used to the fullest extent to capture required
       UAC information with appropriate updates. However, the system is unreliable
       due to frequent system outages which have resulted in inconsistent reporting.
       As a result, E3 is not a reliable tool for CBP to provide increased accountability
       for UAC's safety and well-being during all phases of CBP's custody process.
   • 	 DHS is holding UAC longer than 72 hours because no permanent shelter is
       available. Employee-to-UAC ratios are inconsistent. For example: (1) one station
       had more than 25 UAC for each employee while other facilities ranged from 0 to
       3 UAC for each employee; (2) not all facilities post copies of UAC policies in
       English and Spanish; and (3) not all facilities are systematically maintaining an
       inventory of UAC property.
   • 	 Temperatures in OHS facilities were inconsistent. In some facilities, OHS 

       employees cannot adjust thermostats. 

   • 	 In one location, we observed that contractors did not provide an adequate
       amount of food. We brought this issue to the attention of CBP officials who
       corrected it during our site visit.

Additional Observations

   • 	 Many UAC and family units require treatment for communicable diseases,
       including respiratory illnesses, tuberculosis, chicken pox, and scabies.
   • 	 UAC and family unit illnesses and unfamiliarity with bathroom facilities resulted
       in unsanitary conditions and exposure to human waste in some holding facilities.
       Contract cleaners and OHS employees are working to maintain sanitary
       conditions.
   • 	 DHS employees reported exposure to communicable diseases and becoming sick
       on duty. For example, during a recent site visit to the Del Rio USBP Station and
       Del Rio Port of Entry, CBP personnel reported contracting scabies, lice, and
       chicken pox. Two CBP Officers reported that their children were diagnosed with
       chicken pox within days of the CBP Officers' contact with a UAC who had chicken
       pox. In addition, USBP personnel at the Clint Station and Santa Teresa Station
       reported that they were potentially exposed to tuberculosis.
   • 	 DHS employees are donating clothing, toys and games to UAC and family units.
   • 	 DHS employees are purchasing food, in some instances with their own money, to
       supplement contract food supplies.




                                           3

                ->'/~"     OFFICE OF INSPECTOR GENERAL
                9              Department of Homeland Security


Suggestions for Considerat ion

 To the Principal Deputy Assistant Secretary, U.S. Immigration and Customs
Enforcement:

Ident ify resources necessary for ICE to ensure the E3 data system functions reliably.

To the Commissioner, U.S. Custom s ond Border Protection;

Develop, in consu ltation with DHS CRCL, a " Know Yo ur Rights and Responsibilit ies" video
for UAC and family units. The video should include, but need not be limited t o: hygiene
w hile in custody; appropriat e use of OHS faciliti es, including to ilets and show ers; DHS
processing procedures, such as medical screenings and vaccination s; t he right to food
and potable water; proced ures for access to emergency m edical care, telephones, and
co nsular notification; and procedures for raising concerns. The video should be avai lC1bl e
in Span ish and translated to oth er langu ages as needed.

Ensure that all DHS facilities that house unaccompanied alien children post the
Unaccompanied Alien Child Policy In English and Spanish.

Until E3 is functioning properly, OHS facilities should complete a property checklist for
each unaccompanied alien child or family unit in custody.

We ilppreciate t he courtesies and cooperation extended t o our staff by CSP personnel
during our onsite reviews.



cc:    The Honorable Thomas S. Winkowski, Pri ncipal Depu ty Assistant Sec retary
        U.S. Immigration and Custom s Enforce ment 

       The Honorable R. Gil Kerlikowske, Commissioner 

        U.S. Customs and Border Protection
       The Honorable Megan H. M ack, Officer for Civil Rights and Civil Llberties




                                              4

                                                                                                  l\ttachment 1


                                                    Unaccompanied Alien Children Site Visits
                                                                      July 1-16, 2014

  OIG INVOHice                 USBP SECTORS                          LOCATION
                                                                                                Date of
                                                                                                  '"-~
                                                                                                                  Date OT
                                                                                                                   '"-~
                                                                                                                              .._,_
                                                                                                                             oat~of
                                                                                                                                        .._,_
                                                                                                                                       oateof     C>ate of
                                                                                                                                                   VI-'""

TUCSON(l)          Tucson Sec.tor                 No~nlP.~                                     7/2/"l.014   7/15/2014
Stte Vists (2)

f~PASO    (8)                                     FLErC Afte~ia    flfTC & ICt/tRO             7/9/2014
Site Visits {8)    El Po~ S~LOf                   Clint USOP St.Jtion                          7/10/2014
                   Fl Paso S~ttor                 ~ming USBP Station                           7{10/2014
                   El Paso Sector                 Cl Paso USBP Sbtion (Station 11              7/10/2014
                   ti Paso Se<tor                 Fort H!'tnco<:k USBP S.t<Jtiou               7/10/2.014
                   El Pnso Sf!'ttor               Sal\l.t T~fCS~ USBP St;ition                 7/10/2014
                   ti P;'\SO Sc-ctor              Ysl('t<' VSBP Stlltion                       7/10/2014
                   fl Paso S~ttor                 Paso Del Noni:! POE· CBP/OFO                 7/10/2014

SAN DIEGO (26)     ti Centro Sector               ('.alP.xico USSP St;,tion                    7/1/2014
Site Visits (26)   El c~ntro S1:1c:tor            C.l!cxlco Port of tntrv f\lst                7/l/20lA
                   El Centro Sector               Calexico Pnrt of E'nt~y ·.v~~t               7/1/2014
                   El C~ntro S.t:!ctor            El CC'rllfO USBP StJtion                     7/1/2014
                   Cl Centro Sector               fl C~ntro USB? Sub-SUltion-1·8               7/1i2014
                   El CP.ntro SP.ctor             El Centro ICE ERO                            1/1/2014 i
                                                  ff Centro ICE Servic~ Proao:sings Cf!ntE!r   7/11/2014 i
                   Fl CP.ntro Sector              Highw<Jy 8& USBP Ch~c.:kpoinl                7/1(2014 #
                   El c~1uro seclor               Uiahwav ll:l USRPCht-tkpoint                 7/1/20],l ;
                   £1 Centro Sector               Indio USBP St~tion                           7/1i2014 !
                                                                                                            I
                   San      Oi~;;i,:<1 S~c.tor    AncirndP Port of Entry                       7i1/2014
                   San      Oi~go Seclot          Boulllv"rd USSP St;ition                     7/l/20l4
                   san      01eP:o Sector         llrown r:ielcl lJSBP S~ntion                 7/1/2014
                   Sr1n     OiP.go S~ctor         C~mpo USBP Station                           7/1!2014
                   S...11   Oit!t',U SE!c.:lOJ    Chul;1 V:~ta USUP Station                    7/1//.014
                   S3n      Diego S~c.tor         El (..:ljon lJSSP Sub-Stcition-Campo         7/1/2014
                   ~n       OiP.go S~ctor         El Cajon USSP Sub-S~liOtl·f'v1<l8nOlia       7/li2014

                   San Oie;:l;o Sec.tor           High·.vay 94 llSBP ChP.ckpoint               7/1/2014
                   San Oit!gu Seclo1              Imperial Be"ch USBP St.1tion                 7/1/?0l4
                   Si'ln Diego Sector             lnt~rstate 8 USBP ChP.c:kpoint               7/1/2014
                   Sr1n OiP,gn S~c:tor            f\1uiriet~ USBP SiaLiou                      7/1/2014
                   5,'jn 0·1eeo Seelor            Ot;:iv fll1cs~ Port of Fntrv                 7/1j2014
                   San Die~o S~c:tor              S·2 USBP Ch~ckpoint                          7/1/2014
                   SC:u) Ot~C,O S(!Cl-01          San Cl~mentc IJSC\P Station                  7j1/20l4
                   San Oiego Sect<1r              San Ysidro Point of Entry                    7/1/2014
                   San Oi~go Seel<>•              TE!Cc\le Point ot tntr~·                     7/1/?014

HOUSTON (28)       Rio Grand~ Valt~y Sector       Brownsvillll USBP Station                    )/3/2014         7/14i2014
Site Visits (51)   RIO Grande Vallev Sector       Corous Christi BP Stntinn                    7/7/2014         7/lS/2014
                   Rio GrandE! V<Jllf!y Sector    falfu1ia~ USSP S~lion                        7/7/2014         i/lS/2014
                   Rio G'ancle valley Sector      ~ort Grown USBP Station                      7/3/2014         7/14/2014
                   Rio Gr"ndf! V<Jlley S~ctor     Mr..\llf!n USQP Sl<lliOfl                    7/2/2014         7i14/2014
                   Rio Gr~od& V~lley SE!CLOr      Hartinv.cn USBP St;ition                     7/3/?014         7/14/2014
                   Rio GrandP Vall~v Ser.tor      Kini,.WillP. USBP St<Jtion                   7/7/2014         7/lti/2014
                   Rio Gr,.ndE! V<Jll*ly Sector   Rio Grand~ Vol II~ USSP StJ.tion             7/2i2014         1/14/2014
                   Rio GrJnd~ Vallcv Sector       \A,,'eslaco USRP .Statior.                   7/2/2014         7/14/2014

                   ~I Rio Sector                  Bra<kelville USBP Statio:'                   7/lS/2014
                   ()(:I Rio Sector               Carr'1zo Sorin" lJS6P Station                7/l6/20l4
                   Del Rio Sector                 Comstock USBP Sta!ion                        7/LG/2014
                   ~I Rio Sector                  Del Rio USBP S~lion                          7/3/2014 7/4/2014             1/6/2014 7/7/2014   ·1/9/2014
                   CK!I Rio Sector                Dd Rio Pon of tntrv                          7/8;?014
                   Cel Rio Sec:tor                £aglP. Pn~c; North IJSBP St~tion             7/14/2014
                   ~I Rio SHctor                  E<tglH Pa~ South USSP Station                7/14/2014
    Del Rio Sector   Uvalde USBP Station             7/14/2014
'
1Laredo Sector       Cotulla USBP Station             7/7/2014    -l/14/2014
    Laredo Sector    Freer USBP Station               7/8/2014     7/16/2014
    Laredo Sector    Freer 1-59 Checkpoint            7/8/2014     7/16/2014
    Laredo Sector    Hebbronville USBP Station        7/9/2014     7/16/2014
    Laredo Sector    Hebbronville 1-359 Checkpoint    7/9/2014     7/16/2014   I'
    Laredo Sector    Laredo North USBP Station        7/2/2014     7/14/2014
    Laredo Sector    Laredo North USBP Checkpoint     7/7/2014     7/14/2014
    Laredo Sector    Laredo South USBP Station        7/2/2014     7/14/2014
    Laredo Sector    Laredo West USBP Station        .7/3/2014     7/15/2014
    Laredo Sector    Laredo Port of Entry            [7/15/2014
    Laredo Sector    Zapata USBP Station              7/3/2014    7/15/2014
                                                                                        Attachment 2


                                 Facility Observations Checklist
Facility Name:
Observer's Name:
Date:
Facility Observation Checklist              Conditions                                   Yes   No
Toilet                                      Operable
                                            Sanitary
                                            Screened?
Sink                                        Operable
                                            Sanitary
Drinking Water                              Available
Food                                        On-Site
                                            Contract
                                            Other
                                            Provided four to six hours
                                            Hot food
                                            Snacks, milk and juice available
Emergency Medical Care                      Trained medical technicians
                                            First aid kits
                                            Detainee access to prescribed medications
                                            Other
Temperature Control                         Working thermostat
                                            Adjustable thermostat
                                            Current temperature
                                            Blankets available
Ventilation                                 Operation
Supervision                                 UAC monitored directly?
                                            Videos available (request videos be
                                            retained)
                                            Rooms easy to observe
                                            Staff-to-UAC ratio?
Separate Holding Areas from Unrelated
Adults                                      Available
                                            Separation by gender
                                            Separation of opposite sex adults
Telephone                                   Available
                                            Phones operable
                                            Calls logged
Copy of Unaccompanied Minor Policy          Posted in English
                                            Posted in Spanish
Property Checklist                          Checklist Available
                                               Attachment 2




Name of INV Officer:
Date of observation:
Time of observation:
Name of OBP Unaccompanied Minor Coordinator:
                                                                                                           Attach me mt 3

                                Unaccompanied Alien Children Site Visits 

                                               July 1-16, 2014 

                                                                                                INFORMATION NOT
                                       COMPLIANCE                NON COMPLIANCE
                                                                                                   AVAILABLE

TOILETS
Operable                                   69                              -                           -
Sanitary                                   69                              -                           .
Screened                                   6•6                             1                          2
SINK
Operable                                   68                              -                           l
Sanitary                                   68                              -                           l
DRINKING WATER
Available                                  li9                             ~                           .
FOOD                                                                                                                            '
On-Site                                    62                              ~
                                                                                                      1                         I
                                                                                                                                '
Contract
                                           "                                                          3
                                                                           ~

                                                                                                                                I

Provided 4-6 Hours                         66                              l                           z
                                                                           l
Hot Food
Snacks, Milk, and Juice available          "
                                           65                              3
                                                                                                      2
                                                                                                      l
EMERGENCY MEDICAL CARE
Trained Medical Techs                      67                              l                           l
First Aid Kits                             69                              .                '
                                                                                                       .                    1




Detainee Access to Prescription            32                              4
                                                                                            I
                                                                                                      33            -----i

Medications
TEMPERATURE CONTROL
Working Thermostat                         Hi                              1                           2
Adiustable Thermostat                      64                              4                           1
Current Temperature                                                  Range from 56' - 80'
Blankets Available                         67                              -                I
                                                                                                       2
VENTILATION
Orie ration                                54                              -                          15
SUPERVISION
UAC Monitored Directly                     67                              ~
                                                                                                       2
Videos Available (Request Retained)        25              I              ;10'                        34
Rooms Easy to Observe                      6:8             I
                                                                           -                           l
Staff-to-UAC Ratio                               Range from 1 to 1 - 14 to 40                         27
SEPARATE HOLDING AREAS FROM UNRELATED ADULTS
Available                                  65                              -                          4
Separation by Gender                       615             I               l                           2
Separation of Opposite-Sex Adults          Sl                              -                          18

TELEPHONE
Available                                  6!                              -                           1
Phones Operable                            68                              .                           1
Calls Logged                               64                              3                           2
                                                                                                           Attachment 3
